      Inspector General’s
Semi-Annual Report to Congress
   April 1, 2005–September 30, 2005
October 2005



MEMORANDUM FOR             THE FEDERAL CO-CHAIR

SUBJECT:                   Semiannual Report to Congress


In accordance with the requirements of the Inspector General Act Amendments of 1988,
Public Law 100-504, I am pleased to submit the Office of Inspector General Semiannual
Report to Congress for the period April 1, 2005 through September 30, 2005.

This Semiannual Report to Congress summarizes the activities of our office for the 6-
month period ending September 30, 2005. During this year, we issued twenty reports to
the Appalachian Regional Commission, eight of which came during this Semiannual
period. There was one investigation closed due to the declination by the Department of
Justice.

During the period, the Inspector General continued to serve as representative of the
Executive Council on Integrity and Efficiency. Also, the Inspector General continued to
serve as the Inspector General of the Denali Commission in line with a Memorandum of
Agreement between the Appalachian Regional Commission Inspector General and the
Denali Commission Federal Co-Chair. The relationship with the Denali Commission was
terminated at the end of the reporting period. One report was issued during this period to
the Denali Commission.

The Inspector General Act of 1978, as amended by the Inspector General Act
Amendments of 1988, provides that this report be forwarded to appropriate Congressional
committees within 30 days and that you provide whatever additional comments you
consider appropriate.

I appreciate the Commission’s and your offices’ cooperation with the Office of Inspector
General in the conduct of our operations.




Clifford H. Jennings
Inspector General

Enclosure
                                    TABLE OF CONTENTS


                                                                                                                       Page

        Executive Summary                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

        Purpose and Requirements of the OIG Semiannual Report                                         . . . . . . . . . . . iii

  I.    Introduction                       ...........................................1

 II.    Background                       ............................................1

        Appalachian Regional Commission                           ..............................1

        Office of Inspector General                     ...................................5

 III.   OIG Activity                       ...........................................6

        Audits                         ..............................................6

        Investigations                      ..........................................6

 IV. Audit Planning                         ..........................................7

  V.    OIG Hotline                        ...........................................8

 VI. Legislative & Regulatory Review                        .................................8

 VII. Other                            ..............................................8

Appendices       A.      Schedule of Audit Reports Issued,
                         April 1, 2005, through September 30, 2005

                 B.      Schedule of Audit Reports with Questioned or Unsupported Costs

                 C.      Schedule of Audit Reports with Recommendations that Funds be put to
                         Better Use

                 D.      Definition of Terms Used




                                                 i
                                    EXECUTIVE SUMMARY


During this reporting period, the Office of Inspector General (OIG) issued 8 reports to the
Appalachian Regional Commission covering over $5 million audited with $171,075 questioned and
$34, 020 identified to be put to better use. Recommendations in grant and revolving fund reviews
were directed at improved reporting and eligibility of expenditures.

Grant reviews disclosed projects were generally being implemented in accordance with program
requirements and grantees generally had satisfactory accounting systems and internal controls. A
change in audit reporting procedures has brought more oversight to grants by the program managers.
The J-1 Visa Waiver program provides a waiver of requirements for a foreign physician to return to
his/her home country after completion of medical training in the United States. ARC participates as
a Federal Entity sponsor to assist Appalachian communities in providing healthcare services to
medically underserved areas. The applicable ARC policies and procedures require J-1 physicians to
practice 40 hours of primary care per week in a designated Health Profession Shortage Area (HPSA)
in the Appalachian Region and serve at least 3 years (unless a State has a longer period). There is no
prohibition on J-1 physicians working extra hours or practicing subspecialties after fulfilling primary
care requirements.

During the reporting period, the IG served on the Executive Council on Integrity and Efficiency.
The IG was a member of the Government Audit Training Institute Advisory Committee. The IG
continued as the Inspector General of the Denali Commission under a Memorandum of Agreement
with the Denali Commission Federal Co-Chair until July of this reporting year.




                                                 ii
                         PURPOSE AND REQUIREMENTS OF THE
                  OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT


The Inspector General Act of 1978 requires the IG to keep the Federal Co-Chair and Congress fully
and currently informed about problems and deficiencies in the Commission's operations and the
necessity for corrective action. In addition, the Act specifies that semiannual reports will be
provided to the Federal Co-Chair by April 30 and October 31 and to Congress 30 days later.

The Federal Co-Chair may transmit comments to Congress along with the report but may not change
any part of the report. The specific requirements prescribed in the Act, as amended (Public Law
100-504), are listed below.


                                           Reporting Requirements

Section 4(a)(2)            Review of legislation and regulations                                 Page 8

Section 5(a)(1)            Problems, abuses, and deficiencies                                    Page 6

Section 5(a)(2)            Recommendations with respect to problems, abuses, and deficiencies    Page 6

Section 5(a)(3)            Prior significant recommendations not yet implemented                 *

Section 5(a)(4)            Matters referred to prosecutive authorities                           Page 6

Section 5(a)(5) and        Summary of instances where information was refused                    *
6(b)(2)

Section 5(a)(6)            Listing of audit reports showing number of reports and dollar value   App A
                           of questioned costs

Section 5(a)(7)            Summary of each particularly significant report                       **

Section 5(a)(8)            Statistical table showing number of reports and dollar value of       App B
                           questioned costs

Section 5(a)(9)            Statistical table showing number of reports and dollar value of       App C
                           recommendations that funds be put to better use

Section 5(a)(10)           Summary of each audit issued before this reporting period for which   Page 6
                           no management decision was made by end of the reporting period

Section 5(a)(11)           Significant revised management decisions                              *

Section 5(a)(12)           Significant management decisions with which the Inspector General     *
                           disagrees



*       None.

**      See references to Sections 5(a)(1) and 5(a)(2) for discussion of significant reports.


                                                     iii
I.       INTRODUCTION

The Inspector General Act Amendments of 1988 (P.L. 100-504) provided for the establishment of an
Office of Inspector General (OIG) at 30 designated Federal entities, including the ARC. The ARC
OIG became operational on October 1, 1989, with the appointment of an IG and provision of
budgetary authority for contracted audit and/or investigation activities.


II.      BACKGROUND

         A.     APPALACHIAN REGIONAL COMMISSION

The Appalachian Regional Development Act of 1965 (P.L. 89-4) established the Appalachian
Regional Commission. The Act authorizes a Federal/State partnership designed to promote long-
term economic development on a coordinated regional basis in the 13 Appalachian States. The
Commission represents a unique experiment in partnership among the Federal, State, and local levels
of Government and between the public and private sectors. It is composed of the Governors of the
13 Appalachian States and a Federal representative who is appointed by the President. The Federal
representative serves as the Federal Co-Chair with the Governors electing one of their numbers to
serve as the States' Co-Chair.

     -   Through joint planning and development of regional priorities, ARC funds are used to assist
         and encourage other public and private resources to address Appalachia's unique needs.
         Program direction and policy are established by the Commission (ARC Code) by the vote of
         a majority of the State members and the affirmative vote of the Federal Co-Chair. Emphasis
         has been placed on highways, infrastructure development, business enterprise, and human
         resources programs.

     -   Administratively, the Office of the Federal Co-Chair, with a staff of 11, and the Commission,
         with a staff of 48, are responsible for ARC operations. The States maintain an Office of
         States' Representative (3 persons) that has primarily liaison responsibilities. All personnel
         are located in Washington, DC. The Commission staff's administrative expenses, including
         salaries, are funded jointly by Federal and State funds; the States' Representative staff is
         funded entirely by the States; and the Federal Office staff is funded entirely from Federal
         funds.

     -   The Commission's appropriation for FY 2005 was $65.6 million. ARC was fully
         reauthorized by Congress in FY 1999, for the first time since 1982, and reauthorized in
         March 2002. Also, the Transportation Equity Act for the 21st Century (TEA-21) authorized
         $2.25 billion for the construction of the Appalachian Development Highway System
         (ADHS) under Section 201 of the 1965 Appalachian Regional Development Act. Enacted in
         1998, TEA-21 authorized $450 million to be appropriated from the Highway Trust Fund
         annually from FY 1999 through FY 2003. Funding in FY04 and through May of FY05 is
         provided through TEA-21 extension legislation. For FY’s 2005-2009, the Safe,
         Accountable, Flexible, Efficient Transportation Equity Act - A Legacy for Users
         (SAFETEA-LU) makes $470 million available. These funds are derived from the Federal
         Highway Trust Fund but remain under ARC’s programmatic jurisdiction.

                                                  1
        -    Program funds are distributed to State and local entities in line with an allocation formula
             intended to provide fair and reasonable distribution of available resources. ARC staff has
             responsibilities for program development, policy analysis and review, grant development,
             technical assistance to States, and management and oversight.

        -    In order to avail itself of Federal agency expertise and administrative capability in certain
             areas, the ARC often relies on other departments and agencies for program administration,
             especially with respect to highways and infrastructure projects. For example, the
             Appalachian Regional Development Act authorizes the Secretary of Transportation to
             administer the Commission's highway programs. Under this arrangement, the Commission
             retains responsibility for priorities, highway locations, and fund allocations.




                    Appalachian Regional Commission



        Federal Co-                                           13 Governors/States’ Co-

Federal Alternate                                                                   Governors’ Alternates

   Federal Office                                                                   States’ Washington Office

Inspector General                    Executive Director

            General Counsel                                            Local Development Districts

                Public Affairs                                         Human Resources



Planning and Research                Program Operations                 Finance and Administration

      Transportation                     Entrepreneurship                     Publications




                                                      2
Appalachia as defined in the legislation, from which the Appalachian Regional Commission derives its
authority, is a 200,000-square-mile region that follows the spine of the Appalachian Mountains from southern
New York to northern Mississippi. It includes all of West Virginia and parts of twelve other states: Alabama,
Georgia, Kentucky, Maryland, Mississippi, New York, North Carolina, Ohio, Pennsylvania, South Carolina,
Tennessee, and Virginia.


                                                      3
4
               B.      OFFICE OF INSPECTOR GENERAL

The ARC OIG is an independent audit and investigative unit. An independent Inspector General
who reports directly to the Federal Co-Chair heads the OIG.

               Role and Authority

The Inspector General Act of 1978 (P.L. 95-452), as amended in 1988, states that the IG is
responsible for (1) audits and investigations; (2) review of legislation; and (3) recommendation of
policies for the purpose of promoting economy and efficiency in the administration of, or preventing
and detecting fraud and abuse in, the program and operations of the establishment. In this regard,
the IG is responsible for keeping the Federal Co-Chair and Congress fully informed about the
problems and deficiencies in ARC programs and operations and the need for corrective action. The
IG has authority to inquire into all ARC programs and activities that are federally funded. The
inquiries may be in the form of audits, surveys, investigations, personnel security checks, or other
appropriate methods. The two primary purposes of these inquiries are (1) to assist all levels of ARC
management by identifying and reporting problem areas, weaknesses, or deficiencies in procedures,
policies, program implementation, and employee conduct and (2) to recommend appropriate
corrective actions.

               Relationship to Other Principal ARC Offices

The States’ and Federal Co-Chairs, acting together as the Commission, establish policies for ARC's
programs and its administration. These policies are codified in the ARC Code and implemented by
the Commission staff, which is responsible for monitoring project performance and providing
technical assistance as needed. The Federal Co-Chair, as the Federal fiscal officer, is responsible for
the proper use and protection of Federal funds, for ensuring compliance with applicable Federal laws
and regulations, and for taking appropriate action on conditions needing improvement, including
those reported by the OIG. The operations of the OIG neither replace established lines of operating
authority nor eliminate the need for the Commission offices to take reasonable measures to protect
and enhance the integrity and effectiveness of their operations. All Commission offices are
responsible for monitoring and evaluating the programs entrusted to them and reporting information
or incidences needing further audit and/or investigation to the IG.

               Funding and Staffing

The OIG funding level for FY 2005 was $462,000 prior to a rescission. For FY 2005, approximately
22 percent will be used for contract audit services; 69 percent, for salaries and benefits; 2 percent,
for travel; and 7 percent, for all other activities (training, equipment, space, supplies, etc.).

Staffing consists of the Inspector General, an auditor, and a confidential assistant. Grant review
activities continue to emphasize use of contracted services (e.g., independent public accounting
firms or other OIG offices) supplemented by programmatic and performance reviews directed by
OIG staff. Investigative assistance has been provided by other OIG offices on an as-needed basis
through memoranda of understanding. This approach has been deemed the most appropriate to date
in view of the nature of ARC operations and limited resources.

III.   OIG ACTIVITY
                                                  5
       A.      AUDITS

During the reporting year, 20 reports were issued dealing with programs, grants and grantees. Eight
of the reports were during this semi-annual reporting period. Other ongoing reviews are in their
final stages. The division of OIG resources results in audit work being performed by a combination
of permanent and contractor’s staff. Emphasis will continue to be placed on surveys of ARC
operations and programs, completion of grant audits, audit resolution and followup, and physician
compliance with J-1 Visa Waiver program requirements.

Revolving Loan Funds (RLF)

A RLF is a business development revolving loan fund that is used by eligible grantees to make
loans to create and/or save jobs. As borrowers repay loans, the money is returned to the RLF to
make other loans. RLF loans are not intended to match or replace the capacity of lending
institutions, rather, RLF’s fill gaps in local lending, and provide capital which otherwise would
not be available for economic development.

Six RLF audits were conducted during this reporting period covering a total of $5,073,922 of
ARC funds. ARC currently has a total of 46 RLF grants. Findings were mainly
recommendations to strengthening internal controls. The responses by the grantees are
considered generally responsive to the recommendations of the audit reports.

Recovered Funds

Funds recovered during this fiscal year consisted of two checks from Auburn University – one
for $52,400 covering Grant No. 13484; and $109,640 for Grant No. 13495 for funds spent not
according to the grant requirements.

A check for $281,440.90 was received from the Maryland Department of Housing and
Community Development representing funds no longer required for grant related activities and
will be used for additional projects. Further, approximately $670,000 was identified as potential
funds to be put to better use as the funds were currently unused.

       B.      INVESTIGATIONS

The Inspector General Act of 1978, as amended, provides that the IG may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations; mismanagement; gross waste of funds; or abuse of authority. The OIG
does not employ criminal investigators. When the need has arisen, the matter would be referred to
the Federal Bureau of Investigation or assistance would be contracted with another Federal OIG.
Also, the results of investigations may be referred to the appropriate Federal, State, or local
prosecutive authorities for action.

The OIG had two investigations with the support of OIG criminal investigators from the Tennessee
Valley Authority and the Department of Education. During this period in one of these cases, the
Department of Justice declined prosecution of the case. Further, the OIG is monitoring two other
investigations being conducted by state law enforcement or ethics organizations that relate to ARC
                                                6
programs. In one instance the case was referred to the state by the OIG. One investigation has
resulted in the federal indictment and arrest of two grantees. As is the policy of the office, no
information will be given while the case is ongoing.


IV.     AUDIT PLANNING

The OIG will be alert for new or revised areas of ARC operations based on the priorities and
emphasis of ARC management, including results of strategic planning initiatives. Audit planning
will include consideration of such initiatives with the overall goal being to ensure coverage of high
priority, including high dollar, areas in order to assist management to fulfill their responsibilities for
effective and efficient program operations.

Of particular importance is maintaining the flexibility of the audit plan to address changing needs
and priorities. Coordination with ongoing ARC efforts to implement an entity-wide strategic plan is
considered an important element of planning, and discussions with ARC management have
identified several areas for review.

The OIG's strategies and objectives for the next 5 years are defined in a strategic plan. The FY 2003
Annual Plan provides the operational details for OIG activities during FYs 2002-2005 to implement
this strategic plan.

Planned audit work included about 30 individual grant audits in the Appalachian States; additional
followup on grants with completed budget periods, grant extensions, and project results; and tests of
the J-1 Visa Waiver program. The work not performed during the past fiscal year will be carried
over to the upcoming fiscal year. Continued emphasis will be placed on audit followup and
corrective action plans, including working with agency management to address open issues and
achieve audit resolution and closure. Further emphasis will be placed on audits performed prior to
grant completion. This method will allow the auditors to spot problems during the period of
performance and will allow the grantees, who are usually smaller entities, to correct problems mid-
stream and avoid grant closeout problems that, in many cases, the grantee cannot afford to remedy.
The proactivity with the grantees serves not only the grantee but also the Commission as it allows
for a better use of funding and a greater likelihood of mission accomplishment.

In order to maximize use of available resources directed at reviewing ARC activities, emphasis will
continue to be placed on nonstandard reporting formats including memorandum, letter, and survey
reports. Although such reporting formats reduce the time and resources necessary for review
completion, the results and information included in such reports are based on evidence and
supporting documentation consistent with generally accepted auditing standards.




V.      OIG HOTLINE

                                                    7
A regionwide toll-free hotline was previously established to enable direct and confidential contact
with the ARC OIG in line with governmental and longstanding OIG initiatives as identified in the IG
Act of 1978 to afford opportunities for identification of areas subject to fraud, waste, or abuse.
However, contacts with the ARC OIG relative to public complaints or concerns continue to be
primarily received through ARC staff, on regular OIG phone lines, or from other OIG offices.

Also, numerous hotline calls were received with respect to matters for which other agencies have
jurisdiction. This resulted primarily from the ARC OIG hotline apparently being the first such OIG
listing in some telephone directories, resulting in ARC OIG being contacted by citizens who did not
know the appropriate agency for handling their concerns. The ARC OIG facilitated the complaint
process by identifying the applicable agency based on complainant information and providing the
correct OIG hotline number. The ARC OIG Hotline also serves as the hotline for the Denali
Commission.


VI.     LEGISLATIVE AND REGULATORY REVIEW

Primary efforts in this area continued to be related to potential legislative initiatives with respect to
OIG operations. The ARC OIG continues to support legislation that would provide improved
protections for IGs, including designated and career IGs, by consideration of alternatives such as
removal for cause criteria and term limits. The IG disagrees with current proposals about
consolidation of designated federal entity IG offices.



VII.    OTHER


The Inspector General also worked with the Denali Commission to resolve single audit issues that
had arisen and in consultation with the U. S. Office of Management and Budget issued a very narrow
waiver from certain A-133 requirements to certain subrecipients of Denali Commission grants for
the construction of energy infrastructures. The Inspector General addressed the Pacific Northwest
Intergovernmental Audit Forum meeting along with the Federal Co-Chair of the Denali Commission
and attended the Denali Commission meeting in January of this year. Further, the Inspector General
issued the first ever financial statement audit of the Denali Commission during this year.




                                                   8
                                                                                                                                      APPENDIX A



                  SCHEDULE OF REPORTS ISSUED APRIL 1, 2005 TO SEPTEMBER 30, 2005

                                                                                  ARC


      Report                                     Entity and Title                                 Program Dollars          Questioned/           Funds to Better
       No.                                                                                       or Contract/Grant         Unsupported              Use***
                                                                                                     Amount*                 Costs**


  05-13             J-1 Mississippi


  05-14             4-C Economic Development Authority                                           $715,000.00

  05-15             Rural Health Development Inc.                                                $114,000.00



  05-16             Internal Control Review
                                                                                                 $1,437,176.00
  05-17             Georgia Department of Community Affairs

  05-18             Mid-Ohio Valley Regional Planning and Development Council                    $1,215.000.00

  05-19             Tri-County Council for Western MD Inc.                                       $1,146.700.00


  05-20             Northern Tier Regional Planning and Development Council                      $446,046.00            $171,075.00            $34,020.00


  TOTALS                                                                                         $5,073,922.00          $171,075.00            $34,020.00


  *            Grant amounts reported are for ARC grant amounts and do not include matching funds.

  **      A cost the Office of Inspector General has questioned because of an alleged violation of law, regulation, contract, or other
agreements governing the expenditure of funds; such cost is not supported by adequate documentation; or the expenditure of funds for the intended purpose is
          unnecessary or unreasonable. Includes required matching contributions.

 ***           Funds the Office of Inspector General has identified in an audit recommendation that could be used more efficiently by reducing outlays, deobligating
               program or operational funds, avoiding unnecessary expenditures, or taking other efficiency measures, such as timely use of funds.




                                                                                  9
                                                                                        APPENDIX B

                                SCHEDULE OF AUDIT REPORTS WITH
                               QUESTIONED OR UNSUPPORTED COSTS
                                         ($ in thousands)


                                             No. of         Questioned           Unsupported
                                             Reports           Costs                Costs

A.     For which no management decision         2              $ 93
       was made by the commencement of
       the reporting period

B.     Which were issued during the             1             $ 171                   $ 0
       reporting period

       Subtotals (A + B)                       3               $ 264                    $

C.     For which a management decision                                                  $
       was made during the reporting
       period

       (i)      dollar value of disallowed      0              $                        $
                costs

       (ii)     dollar value of costs not       0              $
                disallowed

D.     For which no management decision         3              $ 264
       has been made by the end of the
       reporting period

E.     Reports for which no management          2               $ 93
       decision was made within 6 months
       of issuance




∗ Summary numbers shown above under part C will not match detailed information due to recovery of funds
exceeding questioned costs. This results from repayment, obligation and transfer of funds from a grant.
                                                                                              APPENDIX C

                          SCHEDULE OF AUDIT REPORTS WITH
                   RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                 No. of      Dollar Value
                                                                 Reports   ($ in thousands)


A.   For which no management decision was made by the              2             $37
     commencement of the reporting period

B.   Which were issued during the reporting period                  1           $34


     Subtotals (A + B)                                             3            $71

C.   For which a management decision was made during the            0           $
     reporting period

     (i)      dollar value of recommendations that were agreed                  $
              to by management

              --based on proposed management action                 -

              --based on proposed legislative action                -

     (ii)     dollar value of recommendations that were not         -
              agreed to by management

D.   For which no management decision has been made by the         3             $71
     end of the reporting period


E.   Reports for which no final management decision was made       3             $71
     within 6 months of issuance
                                                                                          APPENDIX D

                                  DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost which the Office of Inspector General (OIG) questioned
                                      because of an alleged violation of a provision of a law, regulation,
                                      contract, or other agreement or document governing the expenditure
                                      of funds; such cost is not supported by adequate documentation; or
                                      the expenditure of funds for the intended purpose is unnecessary or
                                      unreasonable.

Unsupported Cost                      A cost which the OIG questioned because the cost was not supported
                                      by adequate documentation at the time of the audit.

Disallowed Cost                       A questioned cost that management, in a management decision, has
                                      sustained or agreed should not be charged to the Commission.

Funds Be Put To Better Use            A recommendation made by the OIG that funds could be used more
                                      efficiently if management took actions to implement and complete
                                      the recommendation.

Management Decision                   Management's evaluation of the findings and recommendations
                                      included in the audit report and the issuance of a final decision by
                                      management concerning its response to such findings and
                                      recommendations, including actions concluded to be necessary.
                                      Interim decisions and actions are not considered final management
                                      decisions for the purpose of the tables in this report.

Final Action                          The completion of all management actions that are described in a
                                      management decision with respect to audit findings and
                                      recommendations. If management concluded that no actions were
                                      necessary, final action occurs when a management decision is issued.
       THE OFFICE OF INSPECTOR GENERAL

      APPALACHIAN REGIONAL COMMISSION

                serves American taxpayers

     by investigating reports of waste, fraud, or abuse

                 involving Federal funds.


                If you believe an activity is

     wasteful, fraudulent, or abusive of Federal funds,

                        please call

                  toll free 1-800-532-4611

  or (202) 884-7667 in the Washington metropolitan area


                        or write to:


                Office of Inspector General

            Appalachian Regional Commission

         1666 Connecticut Avenue, NW, Rm 215

               Washington, DC 20009-1068


        Information can be provided anonymously.

Federal Government employees are protected from reprisal,

and anyone may have his or her identity held in confidence.
COVER PHOTO
Big Stone Gap, Virginia
Photo by Ken Murray




                             Appalachian Regional Commission

                                Office of Inspector General
                          1666 Connecticut Avenue, NW, Suite 215
                               Washington, DC 20009-1068
